BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-1180
TERRITORY OF AMERICAN SAMOA,

Petitioner,
V.

NATIONAL MARINE FISHERIES SERVICE; UNITED
STATES DEPARTMENT OF COMMERCE; NATIONAL
OCEANIC AND ATMOSPHERIC ADMINISTRATION; KITTY
SIMONDS, EXECUTIVE DIRECTOR OF WESTERN PACIFIC
REGIONAL FISHERY MANAGEMENT COUNCIL;
MICHAELD. TOSATTO, REGIONAL ADMINISTRATOR FOR
NOAA'S NATIONAL MARINE FISHERIES SERVICE
PACIFIC ISLANDS REGIONAL OFFICE; WILBUR Ross,
SECRETARY OF COMMERCE; CHRIS OLIVER, ASSISTANT
ADMINISTRATOR FOR FISHERIES,

Respondents.
As required by Supreme Court Rule 33. l(h), I certify
that the Reply Brief of Petitioner contains 2,773 words,
excluding the parts of the Brief that are exempted by
Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing
is true and correct.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Executed on May 26, 2021.

Amy Tri~~::1-r-_ __
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

